Office of Audit Services Report | Office of Inspector General
Superfund Financial Activities at the National Institute of Environmental Health Sciences for Fiscal Year 2007
August 25, 2008 | Audit A-04-08-01057
Executive Summary
The Superfund financial transactions at the National Institute of Environmental Health Sciences (NIEHS) for the period from October 1, 2006, through September 30, 2007, were allowable, allocable, and reasonable in accordance with applicable laws and regulations.  These Superfund transactions related to fiscal year (FY) 2002 through FY 2007 funds.  NIEHS receives funding to carry out functions mandated by the Comprehensive Environmental Response, Compensation, and Liability Act of 1980.  In general, NIEHS took appropriate action to ensure that its Superfund grantees submitted required audit reports.  This report contained no recommendations.
Complete Report
Download the complete report (PDF)
Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
Return to NIH